           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
   ADMINISTRATION’S TICKET TO
   WORK – TICKET ASSIGNMENTS


   January 2006   A-02-05-15125




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   January 24, 2006                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Ticket to Work – Ticket Assignments
        (A-02-05-15125)


        OBJECTIVE

        Our objective was to verify whether vocational rehabilitation agencies (VRA) completed
        State Agency Ticket Assignment Forms (Form SSA-1365) in accordance with the Ticket
        to Work and Work Incentives Improvement Act of 1999 and related Social Security
        Administration (SSA) policies.

        BACKGROUND
        The Ticket to Work (TTW) program was established by the Ticket to Work and Work
        Incentives Improvement Act of 1999. The program provides eligible Disability Insurance
        and Supplemental Security Income beneficiaries with tickets, which can be used to
        obtain vocational rehabilitation or employment services. The program is intended to
        increase the access and quality of rehabilitation and employment services available to
        disabled beneficiaries. In addition, the program is designed to provide beneficiaries with
        greater freedom and choice of service providers, create competition among providers to
        provide high quality services that are responsive to beneficiary needs and give
        providers incentives to deliver services in the most efficient and appropriate manner to
        achieve desired outcomes.

        To implement the TTW program, SSA used a phased approach to mail tickets to eligible
        beneficiaries. Beginning in February 2002, SSA began the first of 3 phases, which
        included mailing tickets to eligible beneficiaries based on the terminal (last) digit of their
        Social Security numbers and the States in which the beneficiaries resided (see
        Appendix C for more details of the criteria for ticket assignments). As of
        September 2004, tickets had been mailed to all the beneficiaries eligible at that time.
        Tickets continue to be mailed to newly eligible beneficiaries.
Page 2 - The Commissioner


To assign a ticket to a VRA, SSA policy, which is stated in a document referred to as
Transmittal 17, 1 requires a VRA to complete a Form SSA-1365. For “pipeline” cases,
both a representative from the VRA and the beneficiary are required to sign the form.
Form SSA-1365 clearly states that the ticket holder (the beneficiary), or his or her
representative, must sign the form to confirm the decision to assign the ticket to a State
VRA.

SSA designated cases as “pipeline” cases if the beneficiary first became eligible for the
TTW program after developing and signing an Individualized Plan for Employment (IPE)
with a State VRA. An IPE is an agreement between a VRA and a beneficiary, which
details the beneficiary’s employment goals and the support services the VRA will
provide to assist the beneficiary in obtaining, regaining, or maintaining self-supporting
employment. A beneficiary, who is eligible to assign a ticket, can do so only if that
beneficiary and a representative of a VRA have developed and signed an IPE.

SSA designated cases as “new” cases if the beneficiary first became eligible for the
TTW program before the beneficiary and a representative of the State VRA signed an
IPE. For “new” cases, a ticket assignment can be processed using an unsigned
Form SSA-1365, providing it is submitted along with an IPE signed by both the
beneficiary and a VRA representative.

Once completed, VRAs submit Form SSA-1365 to MAXIMUS, which serves as the
Program Manager of the TTW program as contracted by SSA. 2 MAXIMUS manages
the day-to-day administration of the program.

During the period, February 1, 2002 through January 31, 2005, a total of 74,529 tickets
were assigned to VRAs as part of the TTW program. A representative of the Social
Security Task Force, Consortium for Citizens with Disabilities, testified at a
congressional hearing in March 2004 that beneficiaries were involuntarily having their
tickets assigned by State VRAs—apparently without their knowledge or signed consent.
The representative also stated that one VRA was retroactively assigning the tickets of
every person who had received VRA services after February 2002 without notice to the
beneficiary (see Appendix B for excerpt).

The Ticket to Work and Work Incentives Advisory Panel has also stated its concerns on
the process to assign tickets to State VRAs. The Ticket to Work and Work Incentives
Improvement Act of 1999 established the Advisory Panel to advise the President, the
Congress and the Commissioner of Social Security on issues related to work incentive
programs, planning and assistance for individuals with disabilities and the
implementation of the TTW program. In October 2003, the Advisory Panel

1
 SSA’s Vocational Rehabilitation Providers Handbook, Chapter 12, Ticket to Work Program, Section 3A,
Overview of Ticket Assignments, Initial Assignment of a Ticket, Paragraph 4, Proof of a Beneficiary’s
Decision to Assign a Ticket.
2
 Contract No. 0600-00-60020, Program Manager Services for the Ticket to Work & Self-Sufficiency
Program.
Page 3 - The Commissioner


recommended that Transmittal 17 be amended to end the current use of the signed
State VRA IPE as documentation needed for assignment of a ticket. The Advisory
Panel’s recommendation has not been implemented by SSA.

In our work, we verified whether VRAs completed Form SSA-1365s and IPEs in
accordance with the Ticket to Work and Work Incentives Improvement Act of 1999 and
related SSA policies.

RESULTS OF REVIEW
Based on the results of our review, we found that beneficiaries’ tickets were assigned to
State VRAs in accordance with SSA policies. Specifically, our review showed that
MAXIMUS properly processed Form SSA-1365s and corresponding IPEs, and
MAXIMUS maintained adequate controls over ticket assignments to VRAs. We found
that although tickets were properly assigned, there were several beneficiaries who did
not sign their Form SSA-1365s. Signatures on the Form SSA-1365s were not required
in accordance with SSA’s policies, since the cases were “new” cases and signed IPEs
were submitted with them. However, since the Form SSA-1365s were unsigned and
the IPEs did not contain any language signifying that the beneficiary knowingly assigned
his or her ticket, we were unable to determine whether these ticket assignments
occurred with the beneficiaries’ knowledge.

TICKET ASSIGNMENT CASE REVIEW

We found that State VRAs completed Form SSA-1365s and related IPEs in accordance
with SSA policies. In addition, we found that MAXIMUS processed the State VRA ticket
assignments in accordance with SSA policies, in particular, Transmittal 17. Although we
found that the assignments were properly processed, we identified 5 of 50 ticket
assignments that were processed without the beneficiaries’ signed consent on the
Form SSA-1365s. The unsigned Form SSA-1365s were submitted along with signed
IPEs. The IPEs, however, did not contain any language signifying that the beneficiary
was knowingly assigning his or her ticket. While the signatures were not required on
the Form SSA-1365s, since these were “new” cases, we could not determine whether
the beneficiaries knowingly assigned their tickets to their State VRAs. In contrast, we
identified 35 other “new” cases in which beneficiaries had signed their
Form SSA-1365s, even though SSA’s policy did not require it. The remaining
10 assignments we examined were “pipeline” cases and had the beneficiaries’
signatures on the Form SSA-1365, as required.

Controls Over Ticket Assignments

Based on our review, we concluded that MAXIMUS ensured that VRAs submitted
proper documentation for the ticket assignments and that it was properly maintained.
We found data from the Form SSA-1365s and IPEs maintained in case folders that
agreed with database entries for the 50 ticket assignments we examined. Further,
physical security over ticket assignment documentation appeared adequate. We
Page 4 - The Commissioner


observed that case folders were kept in a secure location and access to the folders was
limited to authorized personnel.

UNSIGNED FORM SSA-1365s

Although tickets were assigned in accordance with SSA policies, and adequate controls
existed over the assignment process, 5 of the 50 ticket assignments we reviewed
occurred without the beneficiaries’ signature on the Form SSA-1365. While
Transmittal 17 allows for ticket assignments to occur without the beneficiaries’ signed
consent on the Form SSA-1365 for “new” cases, this policy creates the risk that tickets
can be assigned without the beneficiaries’ knowledge.

A State VRA can select one of three methods to be reimbursed by SSA for the services
provided to ticket holders who return to work. A VRA can select direct cost
reimbursement for services provided, or an outcome or milestone/outcome payment
system. Most of the VRAs have selected to be reimbursed for the direct costs incurred
in assisting a ticket holder to work. Once a State VRA has received cost reimbursement
for services provided, a ticket holder cannot reassign his or her ticket to an employment
network (EN) for additional services. Once a State VRA is paid by SSA under the cost
reimbursement payment system, such payment precludes any subsequent payment by
SSA based on the same ticket to an EN. So, if a ticket is assigned without a
beneficiary’s knowledge to a VRA, the VRA may use the entire value of the ticket,
limiting the ticket holder’s ability to seek additional services from an EN in his or her
efforts to return to work.

CONCLUSION AND RECOMMENDATION

We concluded that although tickets were assigned in accordance with the
TTW program and related SSA policies, assignments occurred without the beneficiaries’
signed consent, and perhaps without their knowledge. While Transmittal 17 allows for
ticket assignments to occur without the beneficiaries’ explicit signed consent on the
Form SSA-1365 for “new” cases, the policy creates the risk that tickets may be
assigned without the beneficiaries’ knowledge. Requiring beneficiaries to sign a
document, either Form SSA-1365 or a revised IPE that clearly states that the
beneficiaries’ signature authorizes his or her ticket to be assigned to the VRA will help
ensure that ticket assignments are being made with the beneficiaries’ knowledge.
Accordingly, to ensure that ticket assignments occur with the beneficiaries’ consent and
knowledge, we recommend that SSA:

   1. Clarify its policy to require that a beneficiary’s signed consent to assign his or her
      ticket is apparent on the documentation required to assign tickets to State VRAs.
Page 5 - The Commissioner


AGENCY COMMENTS

The Agency agreed with our recommendation. The full text of its comments are
included in Appendix D.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Criteria for Ticket Assignments
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
EN     Employment Networks
IPE    Individualized Plan for Employment
OIG    Office of the Inspector General
SSA    Social Security Administration
SSN    Social Security Number
TTW    Ticket to Work Program
VRA    Vocational Rehabilitation Agency
                                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed the regulations for the Ticket to Work (TTW) program authorized by
        the Ticket to Work and Work Incentives Improvement Act of 1999.

    •   Coordinated with Social Security Administration (SSA) and MAXIMUS staff to
        become familiar with Ticket to Work processes and MAXIMUS’ operations and to
        obtain background, requirements, laws, and pertinent criteria related to ticket
        assignments. Also, discussed MAXIMUS' role in ticket assignments and
        documents required, received, retained and processed by MAXIMUS.

    •   Reviewed testimony by an advocate from the Social Security Task Force,
        Consortium for Citizens with Disabilities, who testified before the Subcommittee
        on Social Security of the House Committee on Ways and Means on
        March 18, 2004. Testimony excerpt in part: “Finally, in an SSA document known
        as ‘Transmittal 17,’ SSA has essentially allowed State VRA [vocational
        rehabilitation agencies] to involuntarily assign a beneficiary’s ticket apparently
        without their knowledge or signed consent. Furthermore, we just discovered that
        the Florida State VRA is going back through their case files and retroactively
        assigning the Tickets of every person who had received VR’s services after
        February 2002 without notice to the beneficiary and regardless of whether the
        beneficiary had intended to assign that Ticket to VRA or not.”

    •   Reviewed the Ticket to Work and Work Incentives Advisory Panel’s advisory
        letter recommendation dated October 21, 2003. The recommendation states,
        “Amend Transmittal 17 to end the current use of the signed State VRA IPE as
        documentation needed for assignment of ticket.”

    •   Requested from SSA, the number of VRAs and the number of tickets assigned.
        Also, we obtained, reviewed and discussed Transmittal 17 with an SSA
        representative and found that beneficiaries may have their tickets involuntarily
        assigned without their signed consent providing certain conditions are met.
        Criteria allows for beneficiaries to reassign their tickets to an employment
        network (EN), 1 which is serving under the program and is willing to provide
        services or to another VRA if eligible to receive such services.

1
  An EN is any qualified entity that has entered into an agreement with us to function as an EN under the
Ticket to Work program and assume responsibility for the coordination and delivery of employment
services, vocational rehabilitation services, or other support services to beneficiaries who have assigned
their tickets to that EN.


                                                   B-1
          •   Requested from MAXIMUS the ticket assignment beneficiary file layout by record
              specification, claim effective month, ticket month, etc., and reviewed them to
              identify the data elements that were needed to identify our universe. Upon
              receipt of the universe, we reviewed the data elements in the file layout and
              printouts of various computer screens to further identify specific data needed for
              our review of ticket assignments.

          •   Received from MAXIMUS a universe identifying 74,529 tickets assigned to VRAs
              over a 3-year period from February 1, 2002 through January 31, 2005. Upon
              receipt, discussed characteristics of the universe on current ticket assignments
              assigned by VRAs, logic (edits) in the MAXSTAR system, 2 related supporting
              documentation and case folders.

To determine whether tickets were assigned in accordance with the TTW program and
related SSA policies and to test the controls of these assignments, we originally
selected a random sample of 250 ticket assignments from the universe and obtained
the case folders, which contained documentation used to enter data into the MAXSTAR
system. 3 However, upon examining the first 50 sample items in order of selection, we
found that all 50 tickets were assigned in accordance with the TTW program and related
SSA policies.

Specifically, we requested and reviewed the 50 case folders and information contained
on the SSA Form SSA-1365s, the individualized plan for employment (IPEs) and other
supporting documentation, and compared the information to MAXSTAR data to
determine if data entered agreed with information contained in each case folder. In
particular, we examined the following: ticket assignment, ticket status, unassignment
and termination dates; beneficiary name and Social Security number; name of VRA;
date IPE was signed by beneficiary and VRA; and date Form SSA-1365 was signed by
beneficiary and VRA.

We identified the phase of the mailing of the ticket and determined whether it was a
“new” or “pipeline” case based on the date of the beneficiary’s IPE. In most situations,
the date of the IPE and the ticket phase determined whether the case was a “new” or
“pipeline” case and whether a beneficiary’s signature was required on the
Form SSA-1365. This criterion is summarized in more detail in Appendix C.

We performed field work at MAXIMUS in Alexandria, Virginia and conducted our review
at the Office of the Inspector General, Office of Audit in New York from January 2005
through March 2005. Our audit was performed in accordance with generally accepted
government auditing standards.


2
 MAXSTAR is an operating system used by MAXIMUS that includes a set of computer screens, menus
and data files containing information related to beneficiary ticket assignments for the Ticket to Work
program.
3
    Id.


                                                  B-2
                                                                                                                                        Appendix C
    Criteria for Ticket Assignments
                                                         Pipeline Cases                                                       New Cases
                                                         Documentation Needed for Ticket                                    Documentation Needed for Ticket
      Ticket Rollout States            Defined:           Assignments for Each Phase:                  Defined:              Assignments for Each Phase:
Phase I                            Beneficiary w/
Arizona                            Individualized    A completed Form SSA-1365 including:
Colorado          New York             Plan for      Part A = Items 1-7                               Beneficiary      A completed Form SSA-1365 including:
Delaware          Oklahoma           Employment      1. State vocational rehabilitation agency      w/ an IPE dated    Part A = Items 1-7
Florida           Oregon             (IPE) dated      (VRA) name                                    ON or AFTER        1. State VRA Name
Illinois          South Carolina      BEFORE         2. Ticket holder's name                         February 6,       2. Ticket holder's name
Iowa              Vermont            February 6,     3. Ticket holder's Social Security number           2002          3. Ticket holder's number (SSN)
Massachusetts     Wisconsin              2002        (SSN)                                                             4. Vocational objective or employment
Phase II                                             4. Vocational objective or employment                               outcome per IPE
Alaska            Montana                            outcome per IPE                                                   5a. Date IPE signed by ticket holder
Arkansas          Nevada                             5a. Date IPE signed by ticket holder                              5b. Date IPE signed by State VRA
Connecticut       New                                5b. Date IPE signed by State VRA                                  6. IPE date established for meeting objective
Georgia           Hampshire          Beneficiary     6. IPE date established to meet objective        Beneficiary      7. SSA payment system selected by VRA
Indiana           New Jersey       w/ an IPE dated   7. Social Security Administration (SSA)        w/ an IPE dated    and:
Kansas            New Mexico          BEFORE         payment system selected by VRA                 ON or AFTER        Part B:
Kentucky          North Dakota      November 1,      and:                                            November 1,          The beneficiary signature and date is not
Louisiana         South Dakota          2002         Part B, including:                                  2002             required.
Michigan          Tennessee                             Beneficiary signature and date,                                   The VRA representative signature and date
Mississippi       Virginia                              VRA representative signature and date                             is required in most situations.
Missouri          DC
Phase III                                            Also required are the front (cover) page and                      Also required are the front (cover) page and
Alabama           Texas                              last (signature) page of the IPE containing                       last (signature) page of the IPE containing
California        Utah                               the signatures of the beneficiary and State                       the signatures of the beneficiary and State
Hawaii            Washington                         VRA representative and date signed.                               VRA representative and date signed.
Idaho             West Virginia      Beneficiary                                                       Beneficiary
Maine             Wyoming          w/ an IPE dated                                                  w/ an IPE dated
Maryland          Am. Samoa           BEFORE                                                         ON or AFTER
Minnesota         Guam                 His/Her                                                          His/Her
Nebraska          Northern           Ticket Mail                                                    Ticket Mail Date
North Carolina    Mariana               Date
Ohio              Islands
Pennsylvania      Puerto Rico
Rhode Island      Virgin Islands
                  Appendix D

Agency Comments
                                           SOCIAL SECURITY

MEMORANDUM

Date:      January 17, 2006                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Ticket to Work – Ticket Assignments” (A-02-05-15125) -- INFORMATION

           We appreciate OIG’s efforts in conducting this review.

           We agree with the findings and the recommendation to “Clarify its policy to require that a
           beneficiary’s signed consent to assign his or her ticket is apparent on the documentation required
           to assign tickets to State VRA’s.” We are also pleased that the report acknowledges that
           beneficiaries' tickets were assigned to State Vocational Rehabilitation Agencies (VRAs) in
           accordance with SSA policies, that MAXIMUS properly processed Form SSA-1365s and
           corresponding Individualized Plans for Employment (IPE), and that MAXIMUS maintained
           adequate controls over ticket assignments to VRAs.

           We would like to clarify that the notice to the beneficiaries that their tickets have been assigned is
           sent immediately after the ticket assignment is processed. This verification step allows any errors
           to be corrected.

           In addition, please note that a policy change will be instituted to address the recommendation.
           We propose to require an appropriate statement on the IPE for a beneficiary holding a ticket. The
           statement would indicate that, by signing the IPE, the beneficiary signifies an understanding of
           his or her rights and acknowledges the assignment of the Ticket to the VRA that accepts the
           ticket. This change should make the beneficiary's signature on the Form SSA-1365 redundant as
           the IPE will contain the requisite acknowledgement.

           The policy change will be coordinated with the issuance of the final revised Ticket to Work
           regulations. The proposed regulations, published September 30, 2005, would revise the rules on
           assignment of tickets to VRAs. The comment period for the proposed regulations closed on
           December 29, 2005, and publication of the final regulations is anticipated, pending the Office of
           Management and Budget’s clearance, in spring 2006.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

   Vicki Abril, Audit Manager, New York Office of Audit, (212) 264-0504


Acknowledgments

In addition to those named above:

   Arthur Treglia, Senior Auditor

   Abraham Pierre, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-05-15125.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
